<html>
<title> - RELATED AGENCIES HEARING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                                         Wednesday, March 13, 2013.

                        RELATED AGENCIES HEARING

                               WITNESSES

MAX CLELAND, AMERICAN BATTLE MONUMENTS COMMISSION
KATHRYN A. CONDON, EXECUTIVE DIRECTOR, ARMY NATIONAL CEMETERIES
BRUCE KASOLD, CHIEF JUDGE UNITED STATES COURT OF APPEALS FOR VETERANS 
    CLAIMS
STEVE McMANUS, CHIEF OPERATING OFFICER, ARMED FORCES RETIREMENT HOME
    Mr. Culberson [presiding]. [Off mike.]

                    Ranking Member Opening Statement

    Mr. Bishop. Thank you very much. Today we are glad to be 
here.
    And we have appearing before us a true American hero, and a 
friend of long standing, my good friend, Secretary Max Cleland. 
We go way, way, way back to our Georgia political days, and 
glad to have him here and to welcome him to the committee 
again.
    In addition, of course, today marks the last appearance of 
Ms. Kathryn Condon. She has decided after 25 years to retire.
    I have to tell you, we just need to say thank you for your 
service. And I trust and I assure you that your successor will 
have some big shoes to fill.
    Judge Kasold and Mr. McManus, it is good to have you here, 
as well.
    As you are aware, March 1st marked the beginning of the 
sequestor, which CBO predicts will reduce the GDP by 0.6 
percentage points and estimates that up to 1.4 million jobs are 
at stake if the sequestration is fully implemented. In 
addition, to CBO, the George Mason University study predicts 
that it could be as many as 2.14 million jobs lost.
    Sequestration was included in the Budget Control Act to 
force Republicans and Democrats to work together to resolve the 
fiscal problems, and we have, of course, already heard from the 
service chiefs regarding how sequestration will affect the 
national defense. Today we get to hear from you as to how it 
will affect the agencies charged with preserving the legacy, 
whether in gravesites at Arlington or on monuments across the 
world.
    I have said numerous times, Mr. Chairman, that there is no 
question that we have to cut the deficit, but it needs to be 
done in a balanced, thoughtful way that protects investments, 
protects the middle class, and it doesn't jeopardize our 
national priorities. Look forward to the witnesses' thoughts 
today and I thank you, Mr. Chairman, for allowing me to have 
those few words.
    And I yield back.

                       Chairman Opening Statement

    Mr. Culberson. Thank you, Mr. Bishop. It is a privilege to 
serve with you.
    And also want to be sure to also thank you, Ms. Condon, for 
your service and wish you all the very best in your retirement. 
I know you are looking forward to getting to spend a little 
more time with your family. It is always a blessing.
    We deeply appreciate your being here. Thank you so very 
much. I want to be sure to, if I could, to introduce each one 
of you for the record.
    The Honorable Max Cleland was appointed as secretary of 
American Battle Monuments in June 2009.
    Sir, I am delighted to have you here, and thank you for 
your service to the country in uniform and as a member of the 
executive branch. Deeply appreciate your service.
    Ms. Kathryn Condon has been executive director of the Army 
National Military Cemeteries since June of 2010.
    And again, our very best wishes to you, and thank you so 
very much.
    Judge Bruce Kasold has been chief judge of the United 
States Court of Appeals for Veterans Claims since August of 
2010.
    We thank you, sir, for your service and for being here 
today.
    And Mr. Steve McManus has recently assumed the role of 
chief operating officer for the Armed Forces Retirement Home on 
September 25th of 2011.
    We deeply appreciate your presence today and your 
testimony. Without objection, your written statements will be 
entered into the record.
    We have a bit of a complication in that, of course, right 
when we start they have called a vote, and I think there are 
going to be a couple of votes, I believe--three. So forgive us, 
but we will probably go until we get right to the tail end of 
this vote and then we should probably head down and go vote and 
then--so we will briefly--if we could, we wanted to get 
started.
    I ask you to each briefly summarize your statements. We 
will run down and go take care of these votes and as soon as 
Sanford and I finish that and start on that third vote we will 
come back up and reconvene. But we will recess briefly.
    Thank you very much, and at this time we welcome each one 
of your statements. And without objection, your written 
statements will, of course, be entered into the record. Thank 
you very much.
    Mr. Cleland. Yes, sir. Thank you very much.
    Mr. Culberson. Thank you.
    [Off mike.]

                  Secretary Cleland Opening Statement

    Mr. Cleland [continuing]. Vietnam battle maps at the 
Honolulu Memorial. The Punchbowl Cemetery is run by the 
Veterans Administration.
    The American Battle Monuments Commission runs a memorial in 
honor of the missing in the Nimitz Theater of Operations in the 
Pacific from Honolulu to the Mariana Islands. We have there the 
names of 18,000 missing in World War II and the World War II 
battle maps, showing the battles in the Pacific. We have the 
names of 5,000 missing from the Korean War and the battle maps.
    We have the names of 2,500 missing, but 800 of which have 
been identified through new DNA studies. But we also now have, 
since Veterans Day of last year, the battle maps. So that 
memorial is complete.
    In terms of the Pacific also, later this year, hopefully in 
time for the celebration of the 60th anniversary of the Korean 
truce, and although North Korea has said maybe that truth 
doesn't--truce doesn't apply to them very much--they have said 
that before--nevertheless, the 60th anniversary of the truce 
was a key moment in the Korean War. We hope to be able to 
dedicate in the United Nations Cemetery in Pusan, Korea, the 
only cemetery that they run in the world, an American memorial.
    There were 11 nations that fought the Korean War. Ten of 
them have memorials; we don't have one, in terms of the United 
States. So that was called to our attention by an individual a 
few years ago and by the U.S. embassy there. We hope to 
dedicate that memorial this year.
    In terms of the Pacific some more, Manila is our big 
Normandy of the Pacific--17,000 graves there, and thousands of 
names of the missing, from the MacArthur effort in Guadalcanal, 
New Guinea, and up to the Philippines. So he had his area of 
operations; Nimitz had his area of operations. So in Manila we 
have the Normandy of the Pacific.
    We have completed the master plan for Manila and for the 
four sites in the Pacific that we maintain memorials--Saipan; 
Guadalcanal; Papua, New Guinea; and one other, Cabanatuan. So 
we are upgrading our sites in the Pacific and really looking at 
how to make that Manila Cemetery really permanent.
    In the Manila area we have squatters that sometimes come 
into our area. It is, after all, Asia. So we are putting a 
permanent wall around our property there--formerly Fort 
McKinley, formerly an Army post.
    Now, in terms of telling the story worldwide, we are going 
into the social media world, as I mentioned, with the Pointe du 
Hoc app. We are redesigning our Web site and we are able to 
tell the story now more and more effectively worldwide.
    Now, the real challenge for us coming up is Clark. The 
Congress gave the American Battle Monuments Commission Clark 
Cemetery. Clark Cemetery was an old Army cemetery and then 
later an Air Force cemetery at what became known as Clark Air 
Base. I flew through Clark en route to Vietnam.
    But with the Philippine government in effect kicking the 
United States out of the Philippines, that cemetery was 
abandoned. Then you have an eruption of a volcano nearby which 
dumped a massive amount of ash on those gravesites--about 8,000 
of them.
    They are not necessarily war-dead. They are civilians; they 
are children; there are all kind of people buried there over 
the last 100 years or so. Now, there is one war-dead there from 
Iraq because the father chose to bury the son there, but we are 
hard-pressed to really get at what is there because there are 
no records. We have no records. We are going in there cold.
    We have been given the mission by the Congress to take over 
Clark Air--Clark--what used to be Clark Air Base Cemetery. We 
have been given that mission. We have been authorized by the 
Congress $5 million but none--no money has been appropriated.
    So we will be doing a study to find out how much it will 
cost to basically just cut the grass, pick up the trash, deal 
with making it somewhat presentable. Veterans still will be 
responsible for any burials that they do there.
    So we will be running that cemetery out of Manila. We won't 
be putting a superintendent there. It won't look like an 
American Battle Monuments Commission cemetery anywhere else in 
the world because it stands on its own and it is unique, and so 
we can't expect it to be another Normandy of the Pacific. But 
we will clean it up and make it as presentable as humanly 
possible.
    That is basically our issues, Mr. Chairman. Most of them 
are good issues and we can do our business with the budget 
issues facing the Congress.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you. Thank you very much, Mr. 
Secretary.
    I know we will have some questions, but in order to--we 
will go ahead and proceed, Ms. Condon, with your statement, 
please? Thank you very much.

                      Ms. Condon Opening Statement

    Ms. Condon. Chairman Culberson and Ranking Member Bishop, I 
want to personally thank you and, in particular, the members of 
the committee and your staff for the continued support that you 
have given Arlington National Cemetery in the last 2 years and 
the support to me personally. Rest assured, long gone are the 
typewriters, the three-by-five index cards, and the paper maps 
that were reported in the past. Today, less than 2 years, we 
are the first national cemetery to geo-spacially manage our 
cemetery operations.
    Arlington has achieved, as directed by Congress, the 
baseline accountability of its burial records, and we have 
created a single, verifiable, and authoritative database. In 
this, literally we can document everyone who is buried at the 
cemetery.
    And this database is now linked to our digital mapping 
system, so now we assign, manage, and track all of our 
gravesites digitally. We are no longer using paper.
    With leadership, proper equipment, established standards, 
training, and holding people accountable for standards, have 
made all the difference at Arlington, and we are extremely 
proud of what we have accomplished in the last 3 years. We have 
changed our acquisition and procurement processes and 
procedures to be not only good stewards of the dollars that 
this Congress gives us, but to remain compliant with all 
regulations, which was an issue in the past.
    We have implemented energy, sustainability, and 
environmental initiatives that enhance our natural green space 
at Arlington. And by leveraging technology we have launched ANC 
Explorer, and that is the free, Web-based application that 
allows families and the public to locate gravesites, events, 
and other points of interest throughout the cemetery. It 
generates a photo of the front and back of everyone buried at 
Arlington and it actually gives you directions on how to get to 
that gravesite.
    And with the great support of this committee, in less than 
2 years we not only broke ground but we have built the ninth 
columbarium court, and increasing our niche space in the 
cemetery by 20,249 niches. And the good news is we are going to 
dedicate the columbarium on the 9th of May, so I want you all 
to hold that date because you will be getting invitations to 
attend that.
    Yet, like most federal organizations, I am very concerned 
for Arlington's immediate and long-term operational future due 
to the fiscal uncertainty that we face as the result of both 
the continuing resolutions and the sequestration designated by 
the Budget Control Act of 2011. In the event of a full-year 
continuing resolution, our funding will be reduced to $45.8 
million.
    Our President's fiscal year 2013 budget request, as you 
know, was $173.8 million, and operating under a C.R. would drop 
our budget by $103 million. And what that would mean is we 
would not be able to start the expansion projects for the 
future burials of our veterans, and it also will not be able to 
fund the $25 million that we requested for backlog of 
maintenance and repair.
    Due to sequestration, our--Arlington National Cemetery's 
funding will be reduced by an additional 5 percent of our 
continuing resolution level. We can absorb that sequestration 
amount this fiscal year, but if that sequestration amount goes 
against our budget for the continuing years following that it 
will impact burial operations at Arlington National Cemetery.
    But the decision was finally made to the good news that all 
of the staff that we have paid out of the cemeterial account 
Army will not be furloughed, so what that means is that will 
not delay burials at Arlington, as was previously reported. We 
just got that news that we would not have to furlough our 
staff.
    I could not be more proud of the Arlington staff. All are 
committed to sustain the sacred trust that we have recently 
reclaimed. And despite the challenges of sequestration and the 
continuing resolution, we can assure the Nation of this, that 
burial services at Arlington will continue to be conducted with 
honor and dignity, and we remain focused from here on forward 
to improve our service to our veterans and their families.
    Thank you and I look forward to your questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Culberson. Ms. Condon, thank you very much.
    Judge, Mr. McManus, if we could, we need to go vote.
    You probably already voted?
    I think we are probably going to need to recess and go 
down. We will come back up. As soon as this third vote starts 
we will vote and come back up, so we will stand in recess 
briefly until we get back. Thank you.
    [Recess.]
    Mr. Culberson. Committee will come to order.

                     Judge Kasold Opening Statement

    Judge Kasold. Thank you very much, Mr. Chairman, Ranking 
Member Bishop, and Mr. Farr.
    In response to sequestration, we have examined our 
appropriations and our spending rate so far. Because of the 
number of positions that have not been filled--for example, we 
just received an appointment of a judge at the end of the last 
calendar year--we have enough funding so that we will not have 
to lay anybody off. We will have to underfund the judges' 
retirement fund by about $400,000, and if that is the only year 
that we do that, we can adjust that and work through it. So as 
to sequestration this year, we do not have to have a furlough.
    In handling over 4,350 appeals in fiscal year 2012, almost 
200 requests for reconsideration or panel review, over 140 
petitions for extraordinary relief, and almost 2,300 
applications for reimbursement of attorneys fees under the 
Equal Access to Justice Act, as well as thousands of motions, 
the court remained one of the busiest federal appellate courts 
in the Nation. And for much of fiscal year 2012, the court 
performed its duties at two-thirds strength, operating with 
only six of our authorized nine judges. I am happy to report 
that with the confirmation of two new judges in the last 
quarter of fiscal year 2012 and the appointment of the third in 
the first quarter of fiscal year 2013, we are now up to full 
strength and positioned to be as efficient as possible.
    To be sure, litigation is a time-consuming process. Once an 
appeal is filed, a record has to be compiled, representative 
parties enter into mandatory consultation, and for cases that 
are not resolved at that level, an appellant has 60 days to 
prepare a brief followed by 60 days for the secretary to file a 
brief and another 30 days for the appellant to reply. 
Thereafter, the case would be assigned to a judge, and 
generally they are being decided within 90 days after 
assignment to the judge. Panel cases, of course, take many 
months longer, as the issues are more complex and, therefore, 
time generally is allowed for oral argument and preparation.
    We managed our caseload in fiscal year 2012 by recalling 
all of our senior judges, continuing an aggressive pre-briefing 
consultation program, and improving the way we process cases. 
Specifically, our senior judges judicially reviewed hundreds of 
appeals, freeing up the active judges to concentrate on 
deciding the more complex matters. And our central legal staff, 
through our mandatory pre-briefing conferencing program, 
consulted with the litigating parties when represented and 
resolved about half of those appeals by securing joint motions 
to remand the cases for further gathering of evidence and a new 
decision below.
    Finally, we streamlined our internal processes for certain 
types of cases, reducing the number of legal memoranda prepared 
by the central legal staff and preparing cases for additional 
review, and ultimately cutting about 60 days of processing time 
in those appeals.
    Turning to our budget, to properly fulfill our mission, the 
court's fiscal year 2014 budget is just under $33 million, with 
an additional $2.5 million requested on behalf of the Veterans 
Consortium Pro Bono Program, for a total budget request of 
about $35.5 million--just under that. Since fiscal year 1997 
the Legal Services Corporation Pro Bono Program's budget 
request has been provided to Congress as an appendix to the 
court's budget request, although the court functions merely as 
a pass-through for that amount. Accordingly, I have no comment 
on that portion of our budget request.
    As to the court's operating expenses, our fiscal year 2014 
request reflects an increase of just under $3 million over our 
fiscal year 2013 request. With some slight offsets in other 
areas, this increase results primarily from an increase of 
about $3 million in the statutorily required contribution to 
the Court of Appeals for Veterans Claims Retirement Fund, which 
is statutorily required to be fully funded.
    The increased request for the retirement contribution for 
fiscal year 2014 is based on several drivers, which include: 
the addition of the three judges who were appointed to the 
court within the last year; changes in the actuarial estimates 
for length of life, which is the first change, I understand, in 
12 years, so you have an additional expected lifespan; 
continued extremely low treasury yields; and an increase in 
judicial salaries and retirement pay, pursuant to the Federal 
Circuit case Beer v. United States.
    For fiscal year 2014 the court requests just under $18.5 
million for personnel compensation and benefits, an increase of 
$130,000. The number of full-time employees remains at 127, 
unchanged over the last 2 years.
    For fiscal year 2014 the court requests just over $7.5 
million for all other operational expenses, a decrease of 
$77,000 from fiscal year 2013, which was a decrease of almost 
$200,000 from fiscal year 2012. The court takes seriously its 
obligation to perform efficiently and continues to strive to 
reduce those expenses where there is some flexibility.
    Over the past several years I have testified before our 
authorizing committees and this subcommittee regarding a 
proposal to establish a commission to evaluate the process of 
appellate review. Rather than continue to read, I will just 
reiterate that we continue to recommend a commission be 
appointed to take a look at the two rights to judicial review 
on questions of law that exist in this system--which is our 
court and then, again, at the Federal Circuit Court. I think a 
commission could be helpful in that area.
    And the last thing I will mention, again summarizing, is 
the Veterans Courthouse. As you know, we came very close a 
couple years ago, when the Nation realized its fiscal 
situation, and at the same time we had a significant increase 
in the cost of that courthouse. Recognizing the fiscal problems 
the Nation is facing, we still stand behind those veterans who 
say, if you are going to build a courthouse, the Veterans 
Courthouse should be one of them.
    Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Culberson. Thank you very much, Judge.
    Mr. McManus.

                     Mr. McManus Opening Statement

    Mr. McManus. Mr. Chairman, Ranking Member Bishop, 
Congressman Farr, thank you for inviting me here today to 
testify.
    In 2009 testimony we highlighted how the AFRH was 
revitalizing a mammoth 19th century institution into a modern 
21st century community. We noted this transformation was a 
direct result of the new perspective on aging. Today 
progressive senior care includes services to help people 
maintain independence in their home of choice and continue to 
be active members of the community.
    Over the past 2 years AFRH has been modernizing to promote 
an aging-in-place philosophy and to uphold the century-old 
promise to care for our heroes. Since 2002 we have been 
transforming the AFRH, striving to reduce inefficiencies, 
enhancing operations, and meeting the needs of our current 
residents.
    After damage from Hurricane Katrina in 2005, our Gulfport 
facility rebuilt to be energy efficient and more compatible to 
meet the needs of the next generation of eligible military 
veterans. Built with federal emergency fund, Gulfport has now 
opened for 2 years.
    In Washington the Scott Project, funded by withdraws from 
the trust fund, is nearing completion. And similar to the 
Gulfport facility, the new Scott Building is built for energy 
efficiency and our aging population.
    Additionally, both facilities have adopted the small-house 
concept, which allows our staff to provide individualized, 
person-centered care to our residents.
    Multiple facilities on the Washington campus suffered 
significant damage as a result of the August 2011 earthquake 
that was followed by a category one hurricane 4 days later. The 
structural damage to the 150-year-old historic landmark, the 
Sherman Building, necessitated moving our business operations 
to rooms designated as resident dormitories.
    Thanks to Congress and the president, we have restored the 
historical Sherman Building and other facilities with the $14.6 
million payment from the general fund to the trust fund. To 
date, all administrative functions have resumed operations in 
the Sherman Building.
    AFRH is in the last part of the transition years, 2010 to 
2013. As we establish and expand operations in Gulfport and 
effectively transition to a reduced footprint in Washington, 
many of the infrastructure and new facility changes occurring 
at AFRH will have a positive, direct impact on the solvency of 
the trust fund.
    Although negative growth occurred between 2011 and 2012 as 
we spent for the Scott Project, we stayed on course with our 
growth predictions. By the end of the transition period we 
expect positive growth. Also, as part of our master planning, 
DOD, Arlington National Cemetery, and AFRH are studying 
possible trust fund revenues from ANC's use of surplus 
buildings and the land at the Washington campus.
    In fiscal year 2011, AFRH expanded funds--expended funds as 
a strategic investment in the future generation of residents 
via the Scott Project. This reduced the trust fund balance to 
$115 million, from a high of $186 million, by the end of 2012, 
as reflected in the graph below.
    Our economic analysis, as reported in our long-range 
financial plan, tested possible scenarios. Analysis states that 
the trust fund will remain solvent and its balance will 
increase to its former levels again, but it will not be easy; 
it will take work.
    A little bit about sequestration before I close: Our hit 
under sequestration is $3.3 million. We have done it, like many 
other agencies who haven't furloughed or had to furlough. We 
have hit contracts that are low-lying, like an example would be 
grounds maintenance, where instead of doing a lot of edging 
that is really workload intensive, you don't edge. So you 
modify your contract to take out some of the higher-labor parts 
of the contract to reduce the cost.
    We have also frozen hiring. Much like my colleagues here, a 
lot of our hiring that hasn't taken place, we have put that on 
freeze except for health care, so we have minimal impact on our 
health care as part of the sequestration.
    Our unknown is utilities, probably, most in our area, 
because depending on how that comes in, the $3.3 million may be 
a greater impact towards us. But right now we believe that we 
will not have to furlough as part of the sequestration and 
would hope that it wouldn't be carried forward into next year 
because we would also have major concerns.
    Mr. Chairman, this concludes my testimony. I will be 
pleased to respond to questions from the subcommittee.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                             SEQUESTRATION

    Mr. Culberson. Thank you very much, Mr. McManus.
    And in fact, each one of you, if you--I could, ask you to 
be specific about what, in your opinion, would happen if there 
was sequestration again next year. And thank you very much. 
Glad you were able to cushion the blow this year.
    But in the event that it occurs as the statute says it 
would, just give us each something we can each talk to our 
colleagues about in tangible terms of what that would mean for 
each one of you if sequestration occurred in fiscal year 2014.
    Mr. McManus. Tough thing, the more residents we bring in, 
it drives our upper levels of care to a higher population, and 
that is our highest cost. So to help control that cost we would 
stop bringing in residents until we had the ability to manage 
our costs at that point. That would probably be the most 
significant impact.
    Mr. Culberson. Anything else?
    Mr. McManus. No, sir.
    Mr. Culberson. Essentially, you would continue, obviously, 
the hiring freeze. You would have to continue to look at 
contracts, worry about utilities.
    Mr. McManus. We would continue that same----
    Mr. Culberson. But above all, you just have to stop 
bringing in new residents.
    Mr. McManus. And keep the----
    Mr. Culberson. Okay.
    Judge Kasold. I guess I will ask the question first, to 
just show my ignorance----
    Mr. Culberson. If you are not quite ready yet, if you all 
want to visit for a minute just to give us a ballpark idea, I 
think it would be helpful to----
    Judge Kasold. Is sequestration the same funding that we 
have under the sequestration now? For example, if we have about 
$29 million this year will it be $29 million next year?
    Mr. Culberson. Well, I know we obviously have got a number 
of problems to get over. You have got to make sure, obviously, 
that we get a budget resolution----
    Judge Kasold. Well, let's assume that----
    Mr. Culberson [continuing]. Having a budget number for the 
committee to work from. Then we hope to heavens we are going to 
actually get a bill, which would be nice. Ours is the most 
likely of any of them to get through, and of course, everyone 
in Congress wants to make sure veterans and military 
construction is funded, so we have got, of all the 
subcommittees, ours and DOD are the highest likelihood of 
getting done. And whatever that 302(a) number is and then our 
sub-allocation, but if, in looking ahead, I know, have had to 
think about this, what sort of impact would it have on the 
courts?
    Judge Kasold. Well, if sequestration remained at the same 
funding as sequestration this year, which is just under $29 
million for our court, we would have to furlough people. I 
don't have the exact number of days that we would have to do 
that. One thing that we could also look at though, is the 
retirement fund. Although statutorily it is to be fully funded, 
I would work with your committee and committee staff with 
regard to that, and with your approval, we would underfund that 
for a little bit of time. Obviously you can't carry that on too 
long because eventually you won't have the funds to even carry 
what you have to pay out.
    Mr. Culberson. Sure.
    Judge Kasold. But that is one area that we might have a 
little bit of flexibility on if we work with your committee on 
it, and then an area we could look at for a year or so.
    Other than that, we would have to furlough people. I can't 
answer specifically beyond that.
    Mr. Culberson. And you are obviously short of judges.
    Judge Kasold. Right now, the $29 million----
    Mr. Culberson [continuing]. Those two new judges.
    Judge Kasold. The $29 million, the reason we can do it this 
year is because one of the chambers didn't even come on board 
until the end of last year, and each chambers is about $1 
million. You had two judges that were appointed at the end of 
the FY12 and their staff were not fully on board that year. I 
think one is still not fully on board, so there are some people 
there.
    We have had three positions that we have not filled 
expecting the new judges to be appointed. These were a 
commissioner, for example, a secretary for the senior judges, 
and a CLS person to assist the senior judges. We have assisted 
the judges out of our own resources because we didn't want to 
hire permanent staff when we had these nominees waiting to be 
appointed. Now that they have been appointed--at the time we 
did the budget we had only two appointed, and I wanted to see 
how we would work without the three positions being filled 
before we decided if we were going to----
    Mr. Culberson. Yes.
    Judge Kasold [continuing]. Come to you and drop them. So 
those positions don't have to be filled.
    So we can work with the $29 million this year, but to do it 
next year with the full chambers staff on board, we will 
clearly have to take a look at furloughs.

                CONTINUING RESOLUTION AND SEQUESTRATION

    Mr. Culberson. One other twist, if I could--and I would go 
back briefly to you, Mr. McManus. I forgot to also ask: If, 
heaven forbid, we have to go under a C.R., the Senate hasn't 
acted yet, can't take anything for granted around here. Heaven 
forbid they get tangled up and we are stuck with a C.R. for 
much longer, what effect would that have on you for this year, 
sir?
    Mr. McManus. Sir, just a point of clarification, it is C.R. 
versus sequestration?
    Mr. Culberson. Yes, because you have got two different 
moving pieces. And if they get tangled up, for whatever reason, 
and we are left under a C.R. in another month or 2, what effect 
would that have on you? And answer the question about 
sequestration, because they are two different pieces.
    Mr. McManus. Actually, it would be better for us to be 
under--or not sequestration----
    Mr. Culberson. C.R.
    Mr. McManus [continuing]. But C.R. Because we are--our 
funding is level from last year.
    Mr. Culberson. Okay.
    Mr. McManus. Our impact--the $3.3 million--is because the 
C.R. and the sequestration applied to us.
    Mr. Culberson. Okay.
    Judge, the same question----
    Judge Kasold. Basically, as I understand it, if the C.R. is 
approved we are still stuck with sequestration, so our C.R. is 
higher than our sequestration. So as long as you continue to 
approve some funding and it is a sequestration level the answer 
remains the same: We can make it this year.
    Mr. Culberson. Okay.
    Mr. McManus. Sir, can I come back on mine?
    Mr. Culberson. Yes.
    Mr. McManus. One thing I haven't mentioned under C.R. or 
sequestration which is important is the capital program that we 
have. Under C.R. we do not receive our capital program. Under 
sequestration because of C.R. we do not receive our capital 
program.
    There are certain capital programs as part of our new 
footprint that are really important to us as part of the 
transition to our new facility. One is what we call our 
HomeFree or our lifeline system--nurse call system where we 
have shut down. I will call it our long-term care facility, and 
now we have moved it into two new facilities. One piece to 
that, we need the capital for the nurse call system. It is the 
capital piece that is most important to us.
    Mr. Culberson. Okay.
    Mr. McManus. Under sequestration--or, under C.R.
    Mr. Culberson. Yes. Under the C.R. And then if there is 
sequestration again for 2014 the cut would be 7 percent. And we 
hope all this can be resolved, but it is important, just in an 
abundance of caution, to know that that possibility is out 
there because you always want to be sure you are ready.
    And if I could, Ms. Condon, ask you about those two 
scenarios: One, a continuation of the C.R.
    Ms. Condon. Okay. A continuation of the C.R. of this year--
--
    Mr. Culberson. And secondly, this 7 percent next year.
    Ms. Condon. Okay. With the continuation of the C.R. that 
means that we just get the base budget, so the $103 million 
that we put in for the expansion projects for Arlington 
National Cemetery will impact the future first-time burial of 
our cemetery because it takes 10 years to do that. So we will 
impact the future burials of our veterans and their loved ones.
    And it will also impact the other request was for the $25 
million for our critical maintenance and repair. We are going 
to have more catastrophic failures if we don't fix those things 
that need to be fixed at the cemetery.
    Sequestration, sir, if we just do our base budget, our base 
budget is predominantly service contracts and our pay of the 
staff at Arlington National Cemetery. With a reduction of 5 
percent, that will impact the operations at the cemetery in the 
future.
    Mr. Culberson. Mr. Secretary.
    Mr. Cleland. Mr. Chairman, I have been advised by staff 
that if sequestration lasted another year that when we come 
back in this maybe same room and talk to the committee, if the 
situation continued, that we would be talking about a 5 and 10 
percent cut in the American Battle Monuments Commission, 
somewhere around $3.9 million, we would have to take that out 
of engineering and interpretation. We will still be keeping the 
headstones white and the grass green but that is about all we 
will be able to do.
    We have been able to manage all this--a 5 percent reduction 
last year and sequestration early here--we have been able to 
manage that and say we will be all right, but if this situation 
continues another year we will be in trouble.
    Mr. Culberson. And we all hope that doesn't happen, but it 
is important for the record and for each one of us in our 
conversations with our colleagues to have a feel for that 
because the work that you do is so vital, and all of us in 
Congress want to make sure that you are fully funded and taken 
care of.
    Mr. Bishop.

                          TRUST FUND REVENUES

    Mr. Bishop. Thank you very much, Mr. Chairman.
    Let me go first to Mr. McManus.
    In your testimony you indicate that as a part of the 
retirement home's master plan that you are studying possible 
trust fund revenues from Arlington Cemetery's use of surplus 
buildings on your Washington campus. Can you take a few moments 
to explain this to the committee?
    Mr. McManus. [Off mike.]
    Mr. Bishop. Ms. Condon, do you have any thoughts on that?
    Ms. Condon. Sir, yes I do. Just so you know, we average 
only around 7 to 10 burials a year at the Soldier and Airmen's 
home. Right now we do not see a near-term need to expand the 
cemetery at this time, based on the average of just 7 a year, 
versus the 27 to 30 that we do a day at Arlington.
    Mr. Bishop. Okay.
    Mr. McManus, let me follow up. Deductions from the pay of 
enlisted members, warrant officers, and limited duty officers 
fund the trust fund. What effect will the reduction in force 
and end-strength have on the trust fund?
    Mr. McManus. [Off mike.]
    Mr. Bishop. Okay.
    I had some questions for Secretary Cleland but he answered 
them in his remarks, so I don't have to ask.
    So I thank you for that.

                           MILLENNIUM PROJECT

    Let me ask Ms. Condon about the Millennium Project.
    Would you just take a couple of minutes to explain to the 
subcommittee how the Millennium Project will help Arlington in 
regards to providing burial services? Are there benefits to the 
project in addition to more burial spaces?
    Ms. Condon. Well, sir, first of all, we are ready to award 
the contract if we get the dollars in this fiscal year to do 
that because right now we will run out of in-ground first 
interment burial space in 2024. That is why it is so key to 
start the Millennium Project this fiscal year because it takes 
approximately 10 years for the in-ground burial part of that 
project. Once we put up the columbarium courts you can use 
those, but for the in-ground burial, which is a good portion of 
the Millennium Project, we need to start that this fiscal year.
    We have our designs. We are being very environmentally 
sound. I think there has been a lot of confusion with the 
Millennium Project from previous designs, and this Saturday we 
are literally having an open house for the public to come walk 
the grounds so they can see our plans for the project and that 
we are going to have the construction of the Millennium Project 
fit into the environment. So so far, if we stay on track and we 
do get funded this year, we should be completed in 2024.
    Mr. Bishop. Why would it take 10 years for in-ground 
burial?
    Ms. Condon. Sir, the bottom line is, first of all, the 
ground has to settle for two years, and we have to design 
around the topography. It is going to be a major cut-and-fill 
project as well, but the ground has to settle for at least 2 
years before you can do an in-ground burial, and that is based 
on, other cemeteries like those in Veterans Affairs. So the 
ground has to settle first, so that is really the long pole in 
the tent is having the ground settle.
    Mr. Bishop. That is only 2 of the 10 years----
    Ms. Condon. But the bottom line, sir, is, If you look at 
the project, a lot of it has to do with the topography and what 
we have to do to get the grounds right, and to build the 
columbarium court, and to restore the stream there. So the 
project will take 10 years.
    Mr. Bishop. Thank you, Mr. Chairman. Thank you----
    Mr. Culberson. Thank you very much.
    And I will take members in the order in which they arrived, 
so I am going to recognize Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Ms. Condon, I just have a question, is--does Congress have 
the authority to nominate people that we would like to have 
buried there right away? Because I have some members that I 
think we could----
    (Laughter.)
    Anyway, I really might----
    Ms. Condon. Sir, we don't take reservations; we accommodate 
you at your time of need.

                        APPELLATE REVIEW PROCESS

    Mr. Farr. We just have to make it happen.
    I want to ask Judge Kasold--it was very interesting in your 
statement, on page 7 you talk about how you have recommended 
the establishment of a commission to evaluate the process of 
appellate review of veterans' benefits decisions and to make 
recommendations on how to improve the system. I am very curious 
about that, because what we have heard from Secretary Shinseki 
is we are really cleaning up the filing process, making sure 
that veterans file complete claims so that they don't get 
remanded back and increase the backlog. And I am sure that in 
the long run there is going to be some savings there, the cases 
that don't get appealed because they get resolved in the first 
instance.
    It is probably a very timely moment to have this 
commission. What has been the reaction?
    Mr. Chairman, maybe this ought to take the lead on that. 
Because in the long run, I think if you make recommendations on 
how to improve the system, you are going to come up with some 
savings.
    Judge Kasold. My recommendation is that they take a look 
primarily at the two-tiered judicial review that is----
    Mr. Farr. Yes.
    Judge Kasold. I think General Shinseki is talking about the 
claims processing----
    Mr. Farr. No, he is not talking about--no, he is talking 
the claims processing, yes, when you file, but----
    Judge Kasold. Right.
    Mr. Farr [continuing]. It is when those filings--when you 
don't get a satisfactory decision that you enter your system, 
right, and you make the claim?
    Judge Kasold. That is correct, sir. There are about 1.3 
million claims down in V.A., as I understand it. About 40,000 
to 60,000 go to the board, depending on their activity, and 
about 4,000 or 5,000 come to us.
    And then you have a second--it is very unusual in our 
system, unique in the system--right to appeal to the Federal 
Circuit.
    Mr. Farr. And that is the number that has gone up, as I 
understand from your testimony.
    Judge Kasold. The Federal Circuit?
    Mr. Farr. Yes, the Circuit appeals have gone up from about 
200--historically, approximately 200 appeals to the court were 
filed monthly in fiscal year 1999 through 2004, and since 2005 
the court has averaged about 400--343 cases per month.
    Judge Kasold. Those are to our court, sir.
    Mr. Farr. Yes.
    Judge Kasold. There is the regional office, there is the 
board, and then there is our court, and ours is the judicial 
review over the secretary's actions and the board's actions--
primarily the board's actions.
    Mr. Farr. But----
    Judge Kasold. And then there is a Federal Circuit review 
that you can also request. When you come through the system you 
take however long it takes within V.A. to get a regional office 
decision. That is one level that they have. Then you go to the 
board and that takes time, and there are remands between the 
board and back to the secretary that take place for development 
of evidence.
    And then you step into the judicial arena, where you have 
the secretary and you have the veteran or the other claimant 
who are both making their arguments to the court, and we do the 
judicial review on the case to ensure that in the system down 
below--all the rules and regulations have been followed to 
ultimately reach a decision.
    Then you can take another appeal of right. If you lose, for 
example, or either party loses in our court, you can take 
another appeal of right on questions of law to the Federal 
Circuit. And questions of law generally are going to be cases 
that have greater ramifications down below.
    And so you have a year's time or more, up at the Federal 
Circuit, for that decision to be made. And it is an additional 
review, and as Justice Jackson has said in the Supreme Court, 
you know, they are not always right except for the fact that 
they are final, and so you have this unique system.
    Mr. Farr. Yes. And of these appeals, how many are filed by 
the government, thinking that it is erroneous----
    Judge Kasold. Let me just check. Most of them are veterans, 
sir. There are a number of the----
    Mr. Farr. The point and I would hope that it might support 
your idea for a commission, is--if we can get it right in the 
first instance you are going to have fewer appeals.
    Judge Kasold. I agree. And in fact, my suggestion was for 
the review of the judicial system, and I believe the 
authorizing committees had a proposal, I think from the House 
side, if I am not mistaken, last year or the year before, to 
review the entire system.
    And within V.A. I am sure General Shinseki can talk about 
what process and procedures he can undertake to do things 
better there, but within the judicial system we do have this 
additional unique review that is going to add time to the 
system. And whether or not there is a cost-benefit analysis 
associated with that is what I had suggested might be reviewed, 
because the court has been around now for almost 25 years. We 
have established a significant body of case law that didn't 
exist in the beginning. And the idea came to a number of us who 
have a military background.
    A similar situation had occurred with the Court of Armed 
Forces--what is now the Court of Appeals for the Armed Forces--
COMA back then. And its decisions used to be subject to not 
appeals, but habeas corpus review constantly in the civil 
courts before there was Supreme Court review over the Court of 
Appeals for Armed Forces. And so that type of concept seemed to 
make sense for this system, at least to be looked at now that 
the court has been around for about 25 years.
    But if they were to include, as the legislation has 
proposed, a review down below, I will defer to the senator--
excuse me, the secretary for his comments with regard to V.A.

                               NAVY ANNEX

    Mr. Farr. Thank you.
    Ms. Condon, I am wondering if the Navy Annex, which was 
scheduled to be completely demolished this August, isn't it----
    Ms. Condon. This August, sir.
    Mr. Farr. Would sequestration delay that demolishing?
    Ms. Condon. Right, because part of our budget request for 
this year was the $19 million to do the planning and design of 
the Navy Annex. The buildings are coming down. That was 
Washington Headquarter Services, and the Pentagon is funding 
that. The buildings will be down this August.
    My concern is, if we don't get money to start the planning 
and design for the building, the ground is going to be fallow 
but we can't start planning for the future of the Navy Annex 
without those dollars.

                    STATE-OPERATED RETIREMENT HOMES

    Mr. Farr. And, Mr. McManus, you are the chief operating 
officer for the retirement home. Who manages the budgets for 
the state-operated retirement homes? Is that a Department of 
Veterans Affairs?
    Mr. McManus. I know----
    Mr. Farr. Is it separate from your----
    Mr. McManus. It is separate----
    Mr. Farr. We have a federal retirement home, which you 
operate, and then we have state-operated retirement homes. Is 
that correct?
    Mr. McManus. That is correct.
    Mr. Farr. But they are not managed under the same 
jurisdiction.
    Mr. McManus. That is correct.
    Mr. Farr. So there is an account in the Department of 
Veterans Affairs that deals with that?
    Mr. McManus. I really can't talk to the state homes, sir, 
because they don't fall under me. I know that V.A. has grants 
that go to them to help fund them, but I believe it falls under 
the state, but I really do not know.
    Mr. Farr. Is there anybody that looks and sees whether the 
standards are equal?
    Mr. McManus. Yes. V.A. does have certain--in terms of 
accreditation?
    Mr. Farr. Yes, and in terms of just the compliance with 
codes, is the federal standard stronger than or equal to the 
states'? Is there a quality of review as to whether the states 
are living up to a standard that you have to live up to in your 
retirement homes?
    Mr. McManus. We are required to have an accreditation, just 
as the states' home have an accreditation.
    Mr. Farr. Okay. It is an accreditation process.
    Mr. McManus. That is correct.
    Mr. Farr. And that is a physical review of the facilities, 
everything like that?
    Mr. McManus. And the services----
    Mr. Farr. All right.
    Mr. McManus [continuing]. To make sure that they are--of 
the service standard.
    Mr. Farr. But that is outside of your jurisdiction.
    Mr. McManus. For the states. For the state homes, that is 
correct.
    Mr. Farr. But it is the same commission that looks at both, 
or the certification is both?
    Mr. McManus. No. We will require you to ticket 
accreditation. We have it with CARF; prior to that we had it 
with JCAHO. I am not sure on the state homes who they are 
accreditation is through. I could find out and provide an 
answer to it, but I honestly do not know.
    Mr. Farr. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Farr.
    And my good friend from Nebraska, Mr. Fortenberry.

           IMPORTANCE OF AMERICAN BATTLE MONUMENTS COMMISSION

    Mr. Fortenberry. Well thank you, Mr. Chairman.
    And appreciate you all being here today.
    Mr. Secretary, last year--about a year ago--I think it was 
in February, actually--I visited the American Cemetery at Omaha 
Beach, and the gentleman who met me there did an outstanding 
job. I don't recall his name.
    But he also introduced me to another employee that you have 
had there. In fact, the family has worked there for three 
generations. She was a French national but our employee. And 
they, of course, wanted to treat me very specially, but I said, 
``Let's just walk down to the beach.''
    And I have to tell you, standing on the water's edge and 
looking back across those hundreds of yards of open beach and 
up those steep cliff hillsides and trying to get your mind 
around what those must have faced on that day is not only a 
powerful and frightening experience, but one that I think left 
a deeply--a deep impression on me, so much so that I consider 
that one of the most meaningful days that I have actually had 
in Congress.
    And we proceeded up the hillside there and stood in one of 
the German bunkers that was occupied by a German soldier named 
Sevrilow, who, at the end of his life, wrote a book and 
apparently had fired his weapon about 9 hours straight. And 
standing where he stood or laid, the wide open nature of that 
beach, again, just reminded you very powerfully of the--not 
only the gravity of that situation but just the horror of it.
    Apparently Sevrilow wept as he fired his weapon, as he 
recalled later in life. But these were all facts that were 
given to me by your outstanding staff who were there.
    Now, later in the day on my own I went to Pointe du Hoc and 
over to Sainte Mere Eglise. In August of 1944 a surgeon left 
his wife and two young children and joined the army and became 
a captain, and he, as best we can tell, was in a field hospital 
in England but then transferred quickly to France, and 
following up Patton's movements through Northern France. He was 
killed by an ordnance explosion and buried at Sainte Mere 
Eglise, and he was my grandfather. And so I had attempted to 
find the original gravesite but was able to learn that those 
had all been consolidated into the one cemetery there called 
the American Cemetery at Omaha Beach.
    Something else, though, that I learned: The young French 
woman was my guide--her grandfather was initially employed in 
1944 by us. He helped prepare our dead for transport back home. 
And in the war records, even though they are a bit sparse, of 
my own grandfather's death, I noticed that he was transported 
from his initial burial site at Sainte Mere Eglise to--through 
the Port of Cherbourg, which is where this young woman's 
grandfather had also worked.
    So to stand there and imagine that maybe her grandfather 
handled the remains of my grandfather as he came to his final 
resting place, which is under your domain here in Arlington 
National Cemetery, again, was perhaps the most powerful day 
that I have had in Congress thus far.
    I tell you all this only to say that I basically had to 
place myself--it was winter time but it was a lovely day. Your 
employees there are highly dedicated, honorable, noble people 
who deeply believe in this mission, as clearly all of us who do 
who are on this subcommittee.
    To continue the memories of those who have gone before us 
and sacrificed with everything that they had is not only the 
right thing to do, it defines us as to who we are. Even though 
that is the past, I think it still defines us as to who we are.
    I have taken my five daughters. I have taken my five 
daughters to visit my grandfather's grave at Arlington 
Cemetery. And it is a little bit hard for them to relate to 
that, but still, I think that is important for them to do, 
because I only grew up with stories about this and it wasn't 
until I was able to come to Congress--because my own father 
died when I was young--I was able to unpack the fullness of the 
story here.
    So I don't have any hard questions for you, to be honest. I 
just really deeply appreciate what you do, what you have 
dedicated yourselves to doing. It had an extraordinary impact 
on me, as I know it does millions of other Americans who 
interact with you throughout--on an annual basis.
    So I just wanted to give--put that out there for you. 
Sometimes these hearings can be a little bit tense and back and 
forth because we are all struggling with budgets and audits and 
all that. Just work hard to get it right, as I know you will 
do, and help us to do both missions--to manage this reasonably, 
in terms of tight economic times, but also, let's stay tethered 
to what you know is right, in terms of honoring particularly 
our war-dead and those who have gone before us.
    So with that, I yield back, Mr. Chairman.
    Mr. Culberson. A great story, and it truly is but for the 
work that you all do would not be possible for us, for our 
kids, for future generations to really understand or even begin 
to relate to the sacrifice of the men and women who made it 
possible for us to be here.
    Mr. Cleland. Mr. Chairman, may I respond?
    Mr. Culberson. Please.
    Mr. Cleland. Thank you very much, Congressman Fortenberry.
    Anyone who visits and doesn't come back awed by that 
experience doesn't have blood in their veins.
    I have never seen such dedicated people in the work of our 
government as the French, Americans, foreign service nationals, 
and our superintendents in caring for the combat dead of 
generations ago like they were their brothers and sisters.
    We actually have an employee--it is hard to even say the 
word ``employee'' they are so committed they are like family--
at our Flanders Field Cemetery that, on his own, took it upon 
himself to go back and read about and study and find out about 
the lives of all 400 men who were buried at Flanders Field and 
then write a book on his own about it. I mean, that is the 
sense of dedication that these employees bring to their task. 
And until one actually goes to one of our overseas cemeteries 
and experiences that for themselves, it is hard to describe.
    I will say that that is in keeping with the spirit in which 
the American Battle Monuments Commission was created, which 
General Pershing talked about when he would use the phrase, 
``Time will not dim the glory of their deeds.'' That is our 
motto. That is our goal. And everything we do is measured on 
that.
    So thank you very much for your visit. Please come back. 
And thank you very much for that insight.
    Thank you, Mr. Chairman.

            ARLINGTON NATIONAL CEMETERY UNOBLIGATED BALANCES

    Mr. Culberson. Thank you very much.
    Just a couple other quick questions. I did want to ask 
about, apparently there was an outstanding balance left over in 
Arlington's accounts. I wanted to ask how that was and how you 
all applied that.
    Ms. Condon. Sir----
    Mr. Culberson. Unobligated balances----
    Ms. Condon. Okay, the recovered funds from prior years. 
That was what enabled us to fully fund the ninth columbarium. 
Of those dollars we spent--that was about $14 million--$8.5 
million of that was to take care of our backlog of maintenance 
repair. That is how we repaired the sewer system. We are 
repairing the eternal flame for President Kennedy because it 
has just not been taken care of. It is 50 years coming up, so 
we need to make sure we take care of that.
    Our roads, our infrastructure, our water lines, $2 million 
of that was for our I.T. advancements. So we literally have 
tried to heal ourselves the best without having to come to this 
committee for additional dollars by taking the unliquidated 
obligations from the past and putting it towards the 
maintenance and repair and the major projects that we have 
needed to do.
    Mr. Culberson. How much of that maintenance backlog is 
left?
    Ms. Condon. Sir, that is why we put the bill on the table 
for $25 million this year. When we did our study, we have 
probably close to $70 million in backlog of maintenance and 
repair.
    The sewer system had catastrophic failures, the water lines 
are all 50 years and older. The buildings were not taken care 
of. We had, too, catastrophic air conditioning. But what we are 
doing, sir, is as part of our master plan is programming out 
the maintenance and repair, doing the life, safety, and health 
issues first.
    Mr. Culberson. By the way, do you all also have 
jurisdiction over and providing funding for the Arlington 
House?
    Ms. Condon. No, that is National Park Service.

              AMERICAN BATTLE MONUMENTS COMMISSION AUDITS

    Mr. Culberson. Okay.
    Mr. Secretary, there is--it is my understanding that the 
Government Accountability Office will no longer conduct audits 
on the American Battle Monuments Commission. Can you discuss 
how the commission will be audited going forward and where you 
are in the process of ensuring those audits?
    Mr. Cleland. For the last 15 years the Congress has 
directed that annually the American Battle Monuments Commission 
be audited by the GAO. They have been good partners.
    But now this is their last audit, and we will then have to 
spend some money to hire an outside audit firm----
    Mr. Culberson. Yes, sir.
    Mr. Cleland [continuing]. And get that worked on, so that 
is what we will do. It is one of our fixed costs going forward, 
as one might say, that present a challenge as we bump--if we 
had to bump up against sequestration a year from now.
    Mr. Culberson. Yes, sir.
    What about the--some of the outstanding GAO 
recommendations. How will you track those?
    Mr. Cleland. They shift them into two categories. One is 
management and the other is financial findings.
    We have been clear for 15 years on the financial findings. 
We have management issues with which we deal. They will come up 
again this year. We track those.
    We have been pretty good at basically clearing those up. 
About 60 or 70 percent of those are cleared up annually, but 
then there are always new ones with the GAO audit. So, you 
know, we are on top of it. We work closely with them.
    I will say this: To a certain extent I feel that the ABMC 
is being better managed now than it was when I got there 
because--not because of me but because we have the power of 
technology here managing our finances now through a financial 
management system, which has driven everybody crazy but now 
they are adapting to it worldwide. But before we were back in 
the Kathy Condon's world of three-by-five cards and pens and 
pencils.
    Ms. Condon. The former world.
    Mr. Cleland. Former world. Sorry. Sorry about that.
    Now we have a financial management system. If you speed 
things up, bad things seem to pop out faster. So, but we have a 
new financial management system that is in place and we are 
doing a better job of managing our finances worldwide and 
everybody is beginning to adapt to it. I think there are other 
things that we are more on top of now than we were 3 or 4 years 
ago.
    Mr. Culberson. I suspect you had a fair amount to do with 
it.
    Mr. Cleland. Well, the ones that weren't on top of it 
were--are not there anymore.
    Mr. Culberson. Deeply appreciate it.
    I will have other questions for the record for each one of 
you.
    I am going to pass it to my good friend, Mr. Bishop.
    Mr. Bishop. Thank you.
    Just one question, Ms. Condon. The budget included $84 
million for the Millennium Project, and of course, that funding 
is tied up in the C.R----
    Ms. Condon. Yes, sir.

                             SEQUESTRATION

    Mr. Bishop [continuing]. And now your budget is being hit 
by sequestration.
    What impact will the sequestration have on Millennium 
Project, and at what point will the delay in the new start 
authority affect the starting date?
    Ms. Condon. Sir, if we do not award the contract for the 
Millennium Project this year and do not get the funding that 
will flip us beyond having their in-ground burial space in 
2024, as I said, because it literally will take 10 years to do 
that. So we need to get that project started this fiscal year 
and award that contract.
    Mr. Bishop. So you need the C.R. to be untied?
    Ms. Condon. We need to do that because the bottom line, 
what it does, it will impact the future burials for our 
veterans and their loved ones.
    Mr. Bishop. Thank you.

                               MEMORIALS

    Mr. Farr. [Off mike.]
    Mr. Cleland. Sir, it is--the American Battle Monuments 
Commission Memorial on the west coast, there--the Presidio in 
San Francisco has the names of the missing of those who died in 
the coastal waters of the United States in World War II--1941 
to 1945--the coastal waters. That is the West Coast Memorial. 
We have one that honors the missing on the coastal waters of 
the Atlantic in Lower Manhattan in Battery Park.
    So we have an East Coast Memorial honoring those missing in 
the coastal waters of the United States in World War II in 
Battery Park and one honoring those who lost the----
    Mr. Farr. [Off mike.]
    Mr. Cleland. Those are confined to 1941 to 1945. That is 
the mission of those memorials.
    Now, we keep finding new evidence from time to time--it was 
about 3 years ago that we added two names to the East Coast 
Memorial in New York. There were about 200 ships that were sunk 
between 1941 and 1945 by German submarines along the coastal 
United States, and a lot of those men came up missing. Those 
names are on the wall in Battery Park in our memorial there, 
and the same goes for the west coast.
    But otherwise we have no memorials in the United States. We 
are the overseas people. We are all overseas.
    Mr. Farr. [Off mike.]
    Mr. Cleland. Congressman, I am----
    Mr. Farr. [Off mike.]
    Mr. Cleland. Yes, sir. The secretary of the Army has asked 
me to be the co-chair of an advisory committee, now, because 
full-blown statutory authority now, thanks to the Congress--to 
advise the secretary of the Army on matters concerning 
Arlington. That issue of a west coast Arlington will be on the 
agenda later in the spring when we meet as an advisory 
committee.
    Mr. Culberson. Thank you.
    Thank you very much. Truly, from the bottom of our heart we 
thank you for your service to the country, to the men and women 
in uniform present and past. Deeply appreciate the sacrifice 
you make on behalf of the country.
    And we will submit further questions to you individually 
for the record.
    Thank you very much, and the hearing is adjourned.
    [Questions for the record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
